The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Meredith M. Broadbent, Chairman
                                        Dean A. Pinkert, Vice Chairman
                                        Irving Williamson
                                        David S. Johanson
                                        F. Scott Kieff
                                        Rhonda K. Schmidtlein
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436




July 7, 2014                                                           IG-MM-012


Chairman Broadbent:

This memorandum transmits the Office of Inspector General’s final report, Audit of 332
Cost Estimates, OIG-AR-14-13. This audit focused on whether the Commission was
managing costs of 332 investigations by comparing the estimated costs approved on the
Action Jacket to the actual costs of the investigation. In finalizing the report, we
analyzed management’s comments to our draft report and have included those comments
in their entirety as Appendix A.

This audit identified three problem areas that prevented the Commission from being able
to compare the estimated costs to the actual costs of the 332 investigations. This report
contains seven recommendations to address the problem areas. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.




Philip M. Heneghan
Inspector General
                          U.S. International Trade Commission
                                              Audit Report


                                          Table of Contents

Results of Audit ............................................................................................. 1

Problem Areas ............................................................................................... 2
   Problem Area 1: The Commission Had Inconsistent Methodologies for Estimating
   Costs and Recording Costs for Labor Hours .................................................................. 2

   Problem Area 2: The Commission’s Information Systems did not Contain Mandatory
   Fields to Capture Procurement and Travel Costs for 332 Investigations ....................... 3

   Problem Area 3: Managers Did Not Have Capability to Generate Management
   Reports That Met their Informational Requirements ...................................................... 4

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 5

Appendix A: Management Comments on Draft Report ..........................A




                                                     - ii -
                     U.S. International Trade Commission
                                     Audit Report


                                 Results of Audit
The purpose of this audit was to answer the question:

       Does the Commission compare the actual costs of 332 investigations to the
       estimated costs on the approved action jacket?

No. The Commission did not compare the actual costs of 332 investigations to the
estimated costs from the approved action jacket.

Section 332 of the Tariff Act of 1930 requires the Commission to conduct fact finding
investigations on a wide variety of trade matters. The official initiation of an
investigation is approved by the Commissioners through the Action Jacket process. The
Action Jacket contains a set of documents that provide information regarding the
investigation, and includes a proposed staffing plan and cost estimates. The estimated
costs are established at the beginning of the investigation to inform Commissioners of the
expected resources required for the investigation.

Managers consistently expressed the uniqueness of each investigation and described the
estimate in the Action Jacket as “best guess”, “ballpark”, and “like throwing a dart at a
moving target”. They explained that the complexity of the study and the associated
number of staff hours required are often difficult to assess at that stage of the
investigation. Additionally, they stated that while they monitored costs as they were
being incurred, they did not go back and compare the actual cost to the estimate they
provided in the Action Jacket.

Each investigation may have its differences, but in order to properly manage costs, the
Commission must be able to identify and understand the causes of significant cost
changes throughout the investigation process. This cannot be done until the Commission
has established clear processes and procedures for recording all costs, adequate controls
to monitor the accuracy of recorded costs to protect the integrity of the data, and
accessible internal management reports that contain complete cost data.

We identified three problem areas that prevent the Commission from being able to
compare the estimated costs to the actual costs of 332 investigations:

   •   The Commission had inconsistent methodologies for estimating and recording
       actual costs for labor hours.
   •   The Commission’s travel and procurement systems did not contain mandatory
       fields dedicated to capturing 332 investigation project codes. As a result, reports
       could not be generated to show these costs by investigation.
   •   As a normal course of business the Commission’s managers did not have direct
       access to cost information.


OIG-AR-14-13                               - 1-
                     U.S. International Trade Commission
                                     Audit Report


Until these problems are resolved, it would be too cumbersome and time-consuming for
the Commission to obtain the data it needs to effectively manage the costs of 332
investigations.

Although this audit focused on 332 investigations, the underlying weaknesses related to
the quality, integrity, reliability, and accessibility of data are systemic problems that
affect all of the program areas of the Commission. Therefore, a holistic approach should
be considered when determining what actions should be taken to address the approach to
managing costs.



                                  Problem Areas

                                      Problem Area 1:

    The Commission Had Inconsistent Methodologies for Estimating Costs and
                     Recording Costs for Labor Hours


The Commission should have a way to make an equal comparison between estimated and
actual costs for labor. An equal comparison of costs will allow managers to improve the
cost estimate methodology, help ensure actual costs are being recorded accurately,
identify and quantify events that trigger a significant increase or decrease in costs, and
have a baseline to measure any cost impacts of process and technology changes.

In order to prevent an “apples to oranges” comparison, measurable cost elements need to
be clearly identified, communicated to staff, used as the basis for developing cost
estimates, and used as the standard for recording time. The Commission could not make
an equal comparison between estimated costs and actual costs because they did not use
the same measurable cost elements for developing cost estimates and recording actual
costs.

   •   The cost estimates were developed at a high level, based on a proposed staffing
       plan of key personnel, using an average annual cost for a Commission staffer, and
       historical data from similar investigations.
   •   The actual costs for 332 investigations were recorded by staff members regardless
       of whether they were a part of the project team or indirectly supporting the
       project.




OIG-AR-14-13                               - 2-
                      U.S. International Trade Commission
                                      Audit Report


   •    The actual labor costs for 332 investigations were not accurately captured in the
        Commission’s Time and Attendance System, because of inconsistencies in the
        application of policies and practices regarding charging time to studies.

The Commission had not clearly communicated to staff what should be recorded as a
direct cost to an investigation and what should not. As a result, employees directly and
indirectly supporting an investigation could reasonably charge their time to one of several
different labor cost codes. This led to instances where staff performing the same
investigation-related task had recorded their time differently. As a result of these
inconsistencies, the data that was being used by managers was inaccurate and unreliable.

Both managers and staff reported that hours worked on investigations were not always
recorded in the Time and Attendance System. Many staff worked during the evenings
and on week-ends without recording the hours worked. This practice was not encouraged
or required by managers, but had been adopted by employees to meet deadlines. Until
this issue is addressed, the hours and costs for investigations may be understated.

Recommendation 1: The Commission determine what should be measured and
recorded as a direct cost and as an indirect cost for investigations.

Recommendation 2: The Commission develop a cost estimate template that can be used
to make an equal comparison of estimated costs to actual costs.

Recommendation 3: The Commission update the labor cost code guidelines to provide
clear instructions to employees for recording direct and indirect costs.




                                       Problem Area 2:

       The Commission’s Information Systems did not Contain Mandatory Fields
           to Capture Procurement and Travel Costs for 332 Investigations


The Commission should have access to complete financial data about costs incurred for
332 investigations. The information systems used by the Commission should be able to
generate management reports that are complete, accurate, timely, and meet the
informational requirements of managers making decisions on day-to-day operations.

As a normal course of business, the Commission could not generate a report of costs for
travel or procurement of supplies and services—by investigation. As a result, the data
was not readily available to compare the estimates to the actual costs.



OIG-AR-14-13                                - 3-
                      U.S. International Trade Commission
                                      Audit Report



Each investigation is assigned a unique project identifier. Commission staff have been
required to use this code to record hours worked on specific investigations in the Time
and Attendance System. Since the data was collected, reports could be generated to show
the number of hours and associated labor costs by investigations.

In contrast, the Commission’s budget execution process did not require the project
identifier to be entered into the travel or procurement systems in order to process
transactions. Since the data is not collected in these systems as a normal business
practice, the Commission does not have the capability to generate cost reports from these
systems by investigation.

Recommendation 4: The Commission capture the unique project identifiers in the
respective systems for travel and procurement transactions related to each investigation.



                               Problem Area 3:
     Managers Did Not Have Capability to Generate Management Reports That
                    Met their Informational Requirements


Management should be able to generate standard management cost reports that are
designed to meet their informational requirements and provide consistent information
across the organization. The reports should be easily accessible, accurate, informative,
relevant, and timely.

The Commission did not have tools available for managers to directly generate cost
reports by investigation. Instead of a well-defined management reporting structure, there
was a pattern of settling for the information or technology that was available and trying to
make it fit.

The labor cost code application was the only reporting tool directly available to
managers. The labor cost code application was originally developed to link the
Commission’s budget to the strategic plan and was not designed to provide internal
management reports. This tool had limited access ability, insufficient functionality,
inadequate reporting, and no cost data.

In order to get labor cost reports, managers had to rely on specific individuals with access
to salary data. The individuals generated reports from a Microsoft Access Database
(CASES) that imported data stored in a number of tables maintained on a USITC network
server. Data on comp time and credit time hours charged to an investigation were not
integrated into this approach, so totals were likely to be understated. As with the labor
cost code application, CASES was a derivative of a database that had been developed by


OIG-AR-14-13                                - 4-
                      U.S. International Trade Commission
                                       Audit Report


the Office of the Secretary to collect information on unfair import investigations, and was
not designed to be a cost reporting tool for managers.

Managers informed us that access to salary data was restricted as an internal control to
protect privacy information. This was confirmed by the Office of the Chief Financial
Officer. However, salary data for all USITC staff is readily available to anyone on the
internet at http://fedsdatacenter.com/federal-pay-rates/, so there was no reason for
managers to be unable to directly generate cost reports that contain this information.

Additionally, the project leaders, who developed the cost estimate, did not have access to
the labor cost code application and were not provided with reports during the course of
the investigation. Without any data, they were unaware of any differences between the
resource requirements estimated and what was actually happening. As the person closest
to the project, the project leader should be aware of who is charging hours against the
investigation and have the ability to make inquiries on questionable hours or staff.

Recommendation 5: The Commission identify the informational needs of managers and
project leaders.

Recommendation 6: The Commission develop standardized management reports based
on the informational needs of managers and project leaders.

Recommendation 7: The Commission develop a system to ensure that project leaders
monitor all costs attributed to a project.



               Management Comments and Our Analysis
On July 1, 2014, Chairman Meredith Broadbent provided management comments on the
draft report. She acknowledged that the Commission had inconsistent methodologies for
estimating and recording actual costs for labor hours, that the Commission's travel and
procurement systems did not contain mandatory fields dedicated to capturing 332 investigation
project codes, and that as a normal course of business, the Commission's managers did not have
direct access to cost information. She also agreed to make management decisions in response
to the recommendations in the report.


                     Objective, Scope, and Methodology
Objective:

Does the Commission compare actual costs to complete 332 investigations to the costs
estimated on the approved action jacket?



OIG-AR-14-13                                 - 5-
                       U.S. International Trade Commission
                                       Audit Report


Scope:

   •     22 investigations completed prior to July 23, 2013 (did not include recurring
         investigations)
   •     Cost estimates from the Action Jacket.
   •     Cost reports from Commission’s information systems.

Methodology:

   •     Determined population of completed 332 investigations to review as part of audit.
   •     Performed interviews to gain understanding of:
             o 332 investigation process.
             o How costs are estimated.
             o How costs are recorded.
             o How costs are monitored.
             o Available reports for actual data.
   •     Reviewed procedures:
            o For creating estimates.
            o For recording actual costs.
   •     Collected data:
            o Obtained Action Jackets to identify approved cost estimates.
            o Obtained labor hour and cost reports.
            o Obtained travel cost reports.
            o Obtained procurement cost reports.
   •     Analyzed data.
   •     Clarified gaps.
   • Reported results.


We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-14-13                                - 6-
               U.S. International Trade Commission
                          Audit Report


    Appendix A: Management Comments on Draft Report




OIG-AR-14-13                  - A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
